  Oversight Review          March 7, 2012


Report on Quality Control Review of the Raich
Ende Malter & Co. LLP FY 2009 Single Audit of
       the Riverside Research Institute


        Report No. DODIG-2012-061
Additional Information and Copies
The Department of Defense, Office of the Assistant Inspector General for Audit Policy
and Oversight, prepared this report. To obtain additional copies of the final report, visit
www.dodig.mil/audit/reports or contact the Office of the Assistant Inspector General for
Audit Policy and Oversight at (703) 604-8760 or fax (571) 372-7454.

Suggestions for Reviews
To suggest or request reviews, contact the Office of the Assistant Inspector General for
Audit Policy and Oversight by phone (703) 604-8760 (DSN 664-8760), by fax
(571) 372-7454, or by mail:

                       Department of Defense Inspector General
                       OIG-APO
                       ATTN: Suite 11D28
                       4800 Mark Center Drive
                       Alexandria, VA 22350-1500
                                          INSPECTOR GENERAL
                                        DEPARTMENT OF DEFENSE
                                        4800 MARK CENTER DRIVE
                                     ALEXANDRIA, VIRGINIA 22350-1500



                                                                                                        March 7, 2012

Board of Trustees
Riverside Research Institute

Treasurer
Riverside Research Institute

Audit Partner
Raich Ende Malter & Co.LLP

SUBJECT: Report on Quality Control Review of the Raich Ende Malter & Co. LLP FY 2009
         Single Audit of the Riverside Research Institute Report No. DODIG-2012-061

We are providing this report for your information and use. We considered management
comments on a draft of this report when preparing the final report. As the cognizant Federal
agency for the Riverside Research Institute (the Institute), we performed a review of the Raich
Ende Malter & Co. LLP (the audit firm) single audit and supporting documentation for the audit
period December 1, 2008, through November 30, 2009. The purpose of our review was to
determine whether the single audit was conducted in accordance with auditing standards 1 and the
auditing and reporting requirements of the Office of Management and Budget Circular A-133,
“Audits of States, Local Governments, and Non-Profit Organizations,” (Circular A-133).
Appendix A contains additional background, scope, and methodology of the review.
Appendix B lists the compliance requirements the audit firm considered applicable to the
FY 2009 single audit.

Background. Riverside Research Institute, located in New York City, is a non-profit
organization engaged in scientific and engineering research. Substantially all revenue is derived
from contracts with United States Government agencies. The Institute expended $69 million in
Federal awards for the fiscal year ended November 30, 2009, under one Federal program, the
research and development cluster. Of the $69 million, $30.1 million was expended for
Department of Defense programs.

Review Results. Raich Ende Malter & Co. LLP failed to perform, document and report on the
FY 2009 audit of Federal programs in accordance with auditing standards and Circular A-133
audit and reporting requirements (Findings A and B). Raiche Ende and Malter audit of internal
control and compliance was based on a determination that 10 of the 14 compliance requirements
were applicable to the Institute. However, the audit working papers for all 14 of the compliance
requirements were not adequate to support conclusions on applicability, internal control and the
audit opinion on compliance with laws, regulations and award provisions applicable to the

1
  Auditing standards include both Government Auditing Standards and the American Institute of Certified Public Accountants’
audit standards.
research and development cluster program. In addition, the audit firm did not appropriately
report an audit finding disclosed in the audit. Because of these audit deficiencies, Federal
agencies cannot rely on the audit report for assurance that the Institute managed Federal awards
in compliance with laws, regulations and award provisions.

Riverside Research Institute did not have an understanding of the requirements for preparing the
Schedule of Expenditures of Federal Awards (Schedule) and the Accounting Director informed
us that the Schedule provided to the audit firm may not have appropriately identified and
classified all Federal and pass-through awards in the research and development cluster. Because
the audit firm did not perform appropriate procedures to verify the award information in the
Schedule, there is no assurance that the single audit covered all Federal awards expended or
administered by the Institute in FY 2009 (Finding A). Because of the extent of the audit
deficiencies the FY 2009 audit needs to be re-performed at no additional cost to the government.

Management Comments and DoD IG Response. Raiche Ende Malter and the Institute
agreed to take the recommended actions. Management comments were responsive and conform
to requirements; no additional comments are needed. Management comments are included in
their entirety at the end of this report.


Finding A. Preparation and Review of the Schedule of
Expenditures of Federal Awards to Support the Federal
Program Audit. The Institute did not prepare the Schedule of Expenditures of Federal
Awards in accordance with Circular A-133 requirements and the audit firm did not perform
procedures to verify the completeness and accuracy of the Federal award information presented.
Since the Schedule serves as the primary basis for determining the scope of the Federal program
audit, there is no assurance that the audit of Federal programs properly included all Federal and
pass-through awards expended and administered by the Institute in FY 2009.

Circular A-133 §__.310 provides the requirements for the auditee's preparation of the Schedule.
The Schedule must cover the same period as the financial statements, include total fiscal year
expenditures for all Federal and pass-through awards, and include award identifying information
and notes describing the significant accounting policies used in preparing the Schedule.

The Circular and the American Institute of Certified Public Accountants Audit Guide
“Government Auditing Standards and Circular A-133 Audit” provide the audit requirements and
suggested procedures for performing and documenting the review of the Schedule in both the
financial statement and the Federal program audit. The purpose of these procedures is to
determine whether the Schedule provides an appropriate basis for planning the Federal program
audit.

       Preparation of the Schedule of Expenditures of Federal Awards. Based on
discussions with the Institute’s Director of Finance, we have no assurance that the Schedule was
prepared in accordance with Circular A-133 requirements. Specifically, the Director was
uncertain if the accounting records used to prepare the Schedule accurately identified awards by



                                                2
agency and award type, and whether the information related to pass-through and classified
awards were accurate and complete.

        Audit of the Schedule of Expenditures of Federal Awards. The working papers
did not contain any evidence to support that the audit firm performed procedures in the Federal
program audit to determine if the Schedule information provided an appropriate basis for setting
the scope of the single audit. Specifically, there was no evidence to support that the auditor
gained an understanding of the internal controls over the preparation of the Schedule or
performed procedures to determine the accuracy and completeness of Federal award information.

Finding B. Performance, Documentation and Reporting in
Accordance with Auditing Standards and Circular A-133
Requirements. The audit firm failed to perform the review of internal control and
compliance of the research and development cluster in accordance with auditing standards and
Circular A-133 requirements. Specifically, the audit firm did not properly determine and
document the compliance requirements subject to audit; perform and document adequate internal
control review procedures; and perform and document adequate compliance testing of all
applicable requirements. In addition, the audit firm failed to properly evaluate, document, and
report an internal control deficiency in the single audit report. Because of these deficiencies, the
audit lacked sufficient, appropriate audit evidence to support the audit conclusions on internal
control and the opinion on compliance and failed to provide Federal program managers with
information needed to ensure accountability over Federal program funds. As a result, Federal
agencies should not rely on the audit to manage and monitor program awards at the Institute.

        Applicability of Compliance Requirements. The auditors determined that the
Davis Bacon Act, real property acquisition and relocation assistance, subrecipient monitoring,
and special tests and provisions were not applicable to the FY 2009 audit. As a result, they did
not perform any audit procedures to review the Institute's internal control over compliance or
compliance with these requirements. However, the auditor did not adequately document the
basis for excluding these requirements from the audit. Therefore, there was insufficient evidence
to determine if all direct and material compliance requirements were included in the scope of the
FY 2009 single audit.

Circular A-133 requires the auditor to determine whether the auditee complied with all laws,
regulations and award provisions that may have a direct and material effect on the audited
Federal programs. To assist the auditor, the Circular A-133 Compliance Supplement (the
Supplement) provides guidance on the identification and testing of applicable compliance
requirements. Specifically, Part 2 “Matrix of Compliance Requirements”, identifies the
compliance requirements that are generally applicable to the research and development cluster,
and Part 3 "Compliance Requirements" states that in making a determination not to test a
compliance requirement the auditor must conclude that a particular compliance requirement
should not be tested, either because it does not apply to the auditee or that a noncompliance
would not have a direct and material effect on the audited program. Auditing standards require
that the auditor prepare audit documentation in sufficient detail so that an experienced auditor,




                                                 3
with no previous experience with the audit, understands the work performed, the evidence
obtained and the conclusions reached.

         Review and Testing of Internal Control Over Compliance. The audit firm did
not perform and document adequate procedures for the review of internal control over
compliance for the following compliance requirements identified by the auditor as applicable:
allowable activities; allowable cost; cash management; period of availability of Federal funds;
eligibility; equipment and real property management; matching, level of effort and earmarking;
procurement, suspension and debarment; program income; and reporting.

Auditing standards and Circular A-133 require the auditor to perform risk assessment procedures
to obtain an understanding of internal control over compliance and to evaluate the design and
implementation of internal controls over compliance for each applicable compliance
requirement. The purpose of the procedures is to determine whether the controls are capable of
preventing, detecting and correcting material noncompliance. As part of the review of internal
control, the auditor must also identify and test the operating effectiveness of key internal controls
they intend to rely on in order to assess the risk of noncompliance due to the control
environment. This assessment is used to establish the nature, timing and extent of compliance
testing needed to obtain sufficient and appropriate evidence to support the audit conclusions on
compliance. The auditor is required to document the risk assessment procedures performed, the
results obtained and the conclusions reached.

        Allowable activities, allowable cost, cash management and period of
availability of Federal funds. The audit firm did not perform adequate risk assessment
procedures for these compliance requirements. Although the audit program required the auditor
to document, in a memorandum, their understanding and testing of internal control, the only
documentation in the audit files was a listing of control characteristics with checkmarks
alongside all the listed characteristics. There was no documentation to support that the auditor
interviewed Institute personnel, inspected internal control manuals, or observed activities to gain
an understanding of the control process. The documentation did not provide evidence that the
auditor identified and evaluated the design and implementation of any internal controls or
identified key controls for testing. Although the documentation indicated that the auditor
performed limited testing of approvals for the allowable activities and allowable cost
requirements, there is no audit trail back to the risk assessment procedures to support that the
auditor intended to identify approvals as a key control. There was no documentation to support
any testing of key internal controls for the period of availability of Federal funds and cash
management requirements.

        Eligibility, equipment and real property management; matching, level of
effort and earmarking; procurement, suspension and debarment; program
income, and reporting. There was no documentation to support that the auditor performed
any procedures to gain an understanding of internal control over compliance or performed any
further required procedures for the review of internal control over compliance for these
compliance requirements. As a result of the inadequate review of internal control over
compliance, the auditor had no basis for establishing the nature, timing and extent of compliance
testing needed to obtain sufficient evidence to support the audit conclusions on compliance.



                                                 4
         Review and Testing of Compliance with Program Requirements. The audit
firm did not perform and document adequate procedures to support the conclusions on
compliance for the following compliance requirements identified by the auditor as applicable:
allowable activities; allowable cost; cash management; period of availability of Federal funds;
eligibility; equipment and real property management; matching, level of effort and earmarking;
procurement, suspension and debarment; program income; and reporting.

Auditing standards and Circular A-133 require auditors to use the results of the review of
internal control as a basis for planning and performing audit procedures to determine compliance
for all direct and material compliance requirements. In order to assist the auditor in obtaining
sufficient and appropriate evidence to support the audit conclusions on compliance, the
standards, the American Institute of Certified Public Accountants Audit Guide, and the
Supplement provide requirements and guidance on audit sampling. The Supplement also
identifies the audit objectives and provides suggested audit procedures for each compliance
requirement.

Guidance on sampling is contained in the auditing standards and the American Institute of
Certified Public Accountants Audit Guide “Government Auditing Standards and Circular A-133
Audits”. The guidance provides sampling considerations and documentation requirements to
ensure that the sampling approach used in the single audit provides sufficient and appropriate
evidence. The guidance covers ensuring that the sample population is appropriate for the audit
objective, that the sample size is consistent with the determined risk of noncompliance, and that
the sample selection process results in a sample that is representative of the universe. In
addition, the Supplement Part 5, "Clusters of Programs" provides specific sampling guidance for
the research and development cluster, and states that the sample selected should come from a
variety of award sizes, types and funding sources. This guidance is intended to address the
unique factor that the cluster is normally composed of awards from many Federal agencies and is
intended to ensure that the sample is drawn from the entire universe of awards in order to
provide appropriate coverage for all Federal agencies.

        Sampling. The sampling approach did not ensure that the auditor sampled across the
universe of research and development awards. Rather, the auditor selected transactions from five
contracts to test compliance with allowable activities, allowable cost, cash management and
period of availability of Federal funds requirements. As a result, the sample was not
representative of the universe because all Federal agency awards did not have an equal chance of
being included in the transaction test sample. In addition, because the auditor did not perform an
adequate review of internal control over compliance there was no basis to support that the
sample size provided sufficient evidence to support the audit conclusions on these compliance
requirements. Furthermore, forty percent of the transactions tested were from fixed-price
contracts. Fixed-Price contracts are not subject to Circular A-133 audit requirements. Therefore,
a significant portion of the sample transactions did not provide appropriate evidence to support
the conclusions on compliance.




                                                5
       Allowable cost, cash management, period of availability of Federal funds,
earmarking, and program income. In addition to the flawed sampling approach, the
auditors did not perform and document adequate procedures to test compliance with these
requirements.

Allowable costs. The auditors did not identify the specific cost principle criteria that the
transactions were tested against. As a result, there is no evidence to support the audit
conclusions that the Institute was in compliance with the allowable cost principles.

Cash management. Under the Institute's reimbursement method, the objective for
compliance with cash management requirements is to ensure that program costs are paid with
Institute funds before reimbursement is requested from the Federal government. However, the
planned procedures did not identify, consider, or verify any information to or from
reimbursement requests submitted to the government.

Period of availability of Federal funds. The audit objective for the period of availability is
to verify whether Federal funds were obligated within the prescribed period of availability and
that obligations were liquidated within the required time period. However, there is no evidence
that the audit procedures accomplished this objective because the working papers did not identify
beginning and ending dates of the awards or otherwise identify the period of availability for the
awards tested.

Earmarking and program income. Earmarking requirements are unique to each Federal
program award and the audit objective is to verify that required minimum or maximum amounts
or percentages are used for the specified activities. Program income is gross income received
during the award period that is directly generated by federally funded projects in activities such
as rental fees or sales of items made under the award agreement. The audit objective for research
and development awards is to verify that the program income was added to the project budget.
In order to accomplish the audit objective for earmarking and program income, the auditor must
first identify awards that contain these requirements.

The review of these two requirements was inadequate because the auditors did not have an
understanding of the compliance requirements and did not specifically identify whether any
awards had earmarking or program income requirements. Because of the specific nature of these
requirements, the auditor should have designed the sample to include a population of awards
appropriate for testing to the audit objectives. However, none of the awards tested included any
earmarking requirements and the working papers did not document any awards with program
income requirements. Rather, the auditors considered normal expense reimbursements received
from the government as program income and verified that the payments received by the Institute
matched the invoices submitted to the government. We discussed the lack of appropriate audit
procedures with the audit firm and were advised that the auditors misunderstood the audit
objectives for both these compliance requirements.




                                                6
       Eligibility; equipment and real property management; matching and level of
effort; procurement, suspension and debarment; and reporting. There was no
documentation to support that the audit firm performed any compliance testing for these
compliance requirements.

         Evaluation and Reporting of a Deficiency in Internal Control. The auditors did
not comply with auditing standards and Circular A-133 requirements because the working papers
did not document that the auditor performed procedures to evaluate the potential impact of an
internal control deficiency on Federal program compliance. In addition, the audit documentation
evaluating the impact of the deficiency on financial reporting was inconsistent, and the reporting
of the deficiency did not comply with auditing standards and Circular A-133 requirements. As a
result, Federal program managers were not aware of internal control and potential compliance
issues that would impact the degree of oversight needed to adequately monitor the Institute’s
management of Federal funds.

Circular A-133 requires reporting all significant deficiencies in internal control, material
noncompliance with compliance requirements, and known or likely questioned costs greater than
$10,000 as audit findings in the “Schedule of Findings and Questioned Costs.” For internal
control deficiencies over financial reporting that do not rise to the level of a significant
deficiency, the auditor can determine whether and how to report to management. This
communication may be done in the form of a management letter and if the auditor does so, the
letter should be referenced in the report on internal control over financial reporting.
Furthermore, a management letter cannot be used to communicate any audit findings that are
required to be reported under Circular A-133.

In performing our review, we became aware that the auditor issued a management letter to the
Institute’s Board of Trustees. The letter communicated a significant deficiency in internal
control over the payroll process disclosed during the financial statement audit. Specifically, the
auditors determined that due to a lack of adequate internal control over the payroll process, a
terminated employee continued to be compensated for 3 months after termination. However, the
documentation did not clearly support the auditor’s evaluation of the severity of the deficiency or
the impact, if any, of the deficiency on Federal program compliance. There was an inconsistency
between the working papers and the management letter on the evaluation of the severity of the
deficiency. The evaluation of a deficiency is critical to ensuring that all required audit findings
are properly reported. The working paper titled “Control Deficiency Evaluation and
Aggregation Worksheet,” identifies the finding as a control deficiency while the management
letter to the Board of Trustees reports the finding as a significant deficiency. In addition,
because substantially all Institute revenues are generated from Federal awards the auditor should
have at a minimum, designed, performed and documented the audit procedures to assess the
impact of the deficiency on the risk of noncompliance with the allowable cost requirements and
determined whether any payroll expenses were improperly charged to Federal awards.

Because there was no documentation to support an assessment of the internal control deficiency
on Federal programs and no documentation to explain the inconsistency on the evaluation of the
severity of the deficiency, we are unable to determine whether the auditor reported all of the
audit findings as required under Circular A-133.



                                                7
Summary. The Raich Ende Malter & Co audit work does not meet the requirements of the
auditing standards and the Circular A-133 audit requirements. As a result, Federal agencies and
pass-through entities cannot rely on the audit for assurance that the Institute managed Federal
awards in compliance with laws, regulations and award provisions. Additional audit procedures
must be performed, at no additional cost to the government, before the audit report can be used
by Federal agencies and pass-through entities to monitor and manage awards to the Riverside
Research Institute.

Under Circular A-133 the Institute is responsible for selecting the auditor to perform the single
audit and is also responsible for ensuring that the audit is performed in accordance with
Circular A-133 requirements. Circular A-133 §__.230(b)(1) prohibits the Institute from charging
the cost of any single audit that was not conducted in accordance with Circular A-133 audit
requirements to a Federal award. Therefore, any costs billed by the audit firm for the FY 2009
single audit must be accumulated separately as unallowable costs and cannot be charged to
Federal awards until the audit is corrected.

In addition, because of the extent of deficiencies disclosed by our review, we conclude that the
Raich Ende Malter & Co auditors that performed the Institute single audit lacked an
understanding of single audit requirements. Also, the supervision provided was not adequate to
ensure compliance with auditing standards and Circular A-133 requirements.



Recommendations and Management Comments.
   1. We recommend that the Treasurer, Riverside Research Institute:

           a. Prepare a revised Schedule of Expenditures of Federal Awards in accordance
              with Circular A-133 requirements and provide the Schedule to Raich Ende
              Malter & Co to redo the FY 2009 single audit to address the deficiencies
              identified in this report at no additional cost to the government.

           b. Identify as unallowable, any costs associated with audit services billed by
              Raich Ende Malter & Co for the original FY 2009 single audit until the audit
              is performed in accordance with Circular A-133 requirements.

           c. Submit the revised FY 2009 Circular A-133 reporting package and Data
              Collection Form with the Federal Audit Clearinghouse and promptly notify
              the DoD Office of Inspector General when the submission actions are
              completed.

The Institute Comments. The Director of Finance, Riverside Research Institute agreed to
take the recommended actions. Management comments are included in their entirety at the end
of this report.




                                                8
   2, We I'ecollllllend that the Audit Partner, Raich Ende Malter & Co:

           a, Redo the FY 2009 single audit of Riverside Reseal'ch Institute in acconlancc
              with Cit'cular A-l33 requit'ements and the audit pl'ocedures should ensure
              correction of the spccific deficiencies identified in this I'cport,

           b, Revise the reporting packagc to rcflect, at a minimum, the datc thc reviscd
              audit work was complcted,

           c, Provide the revised audit reporting package to the Institute for submission to
              the Fedel'al Audit Clearinghouse,

           d, Develop 01' obtain a training pl'ogram fOl' auditors performing single audits;
              assess the technical abilities of auditors and supel"Visors assigned to perform
              single audits; and cnsure the appropriate level of supervisiou commensurate
              with the technical assessment to ensurc that the audits comply with Circulal'
               A-l33 requit'ements,

Raiche Ende and Maltel' Comments, The Audit Partner, Raiche Ende ancl Malter agreed to
take the recommended actions. Management comments are included in their entirety at the end
of this report.

        We appreciate the courtesies extended to the audit staff. For additional information on
this report, please contact Ms. Carolyn R. Davis at (703) 604-8877 CDSN 664-8877).




                                    Randolph R. Stone, SES
                                    Deputy Inspector General
                                      Policy and Oversight




                                                9
Appendix A. Quality Control Review Process
Background, Scope and Methodology
The Single Audit Act, Public Law 98-502, as amended, was enacted to improve the financial
management of State and local governments, and nonprofit organizations by establishing a
uniform set of auditing and reporting requirements for all Federal award recipients required to
obtain a single audit. Circular A-133 establishes policies that guide the implementation of the
Single Audit Act, and provides an administrative foundation for uniform audit requirements of
non-Federal entities administering Federal awards. Entities that expend $500,000 or more in a
year are subject to the Single Audit Act and audit requirements in Circular A-133. Therefore,
they must have an annual single or program-specific audit performed under government auditing
standards and submit a complete reporting package to the Federal Audit Clearinghouse.

We reviewed the Raich Ende Malter & Co FY 2009 single audit of Riverside Research Institute
and the reporting package that was submitted to the Federal Audit Clearinghouse on
March 31, 2009, using the 1999 edition of the “Uniform Quality Control Guide for the A-133
Audits” (the Guide). The Guide applies to any single audit that is subject to the requirements of
Circular A-133 and is the approved President’s Council on Integrity and Efficiency 2checklist for
performing quality control reviews. The review was conducted in accordance with the Quality
Standards for Inspection and Evaluation. We performed the review from September 2010
through September 2011. The review focused on the following qualitative aspects of the single
audit:

                 •      Qualification of Auditors,

                 •      Independence,

                 •      Due Professional Care,

                 •      Planning and Supervision,

                 •      Audit Follow-up,

                 •      Internal Control and Compliance testing,

                 •      Schedule of Expenditures of Federal Awards, and

                 •      Data Collection Form.




2
  The President's Council on Integrity and Efficiency and the Executive Council on Integrity and Efficiency combined into the
Council of the Inspectors General on Integrity and Efficiency in accordance with the Inspector General Reform Act of 2008.




                                                              10
Appendix B. Compliance Requirements3

          OMB Circular A-133 Compliance                                   Applicable                 Not Applicable
                 Requirements

    Activities Allowed/Unallowed                                                X

    Allowable Costs/Cost Principles                                             X

    Cash Management                                                             X

    Davis-Bacon Act                                                                                           X

    Eligibility                                                                 X

    Equipment and Real Property Management                                      X

    Matching, Level of Effort, Earmarking                                       X

    Period of Availability of Federal Funds                                     X

    Procurement, Suspension, and Debarment                                      X

    Program Income                                                              X

    Real Property Acquisition and Relocation                                                                  X
    Assistance
    Reporting                                                                   X

    Subrecipient Monitoring                                                                                   X

    Special Tests and Provisions                                                                              X




3
  Applicability of compliance requirements as determined by Raich Ende Malter & Co. As noted in the appendix, the auditors
determined that certain compliance requirements were not applicable to the FY 2009 audit. However, as discussed in Finding B
to this report the working papers did not provide sufficient evidence to support excluding these requirements from the scope of
the audit.




                                                               11
Riverside Research Institute Comments



                                                                                                  _ . river$lderesearch,Ofg




                                                                                                   January 25, 2012

      Inspector General
      Department of Defense
      Attn: Felicia Fuller
      400 Army NallY Drive
      ArlinKton, VA 22202-4704

      Subject: Report on Qualjjy Cont rol Review of the Raieh Ende Malter & Co. UP FY 2009 Single Audit of
      the Riverside Research Insti tute (Project No. D2009·DIPOAC·0284j

      Dear Ms. Fuller:

      We are in re<:eipt of River side Research Institute's portion of Ihe draft report referenced above dated
      September 30, 2011. As the party ultimately responsible for the Informa tion reported via Ihe Schi!dule
      of hpenditures o f Federal Award, we are Initiating responses on the recommendations provided to
      Riverside Research in the report.

      Riverside has researched the OMB reporting requiremen ts and has delermined the original 2009 SEFA
      was completed incorrectly.

      Response to Recommendations

      1. a,   A revised Schedule of hpenditures of Federal Awards will be produced in accordance with
      Ci«ular 1·133 requirements.

      1. b.   Riverside w ill classify as unallowable those costs associated with audit services billed by Raiche
      Ende Ma lter & Co for the original 2009 Single audit until the audit is performed in accordance with A·
      133 requirements. Riverside does not e~pect to receive any billings from Raich E!!de on any remaining
      work to be done to successfully complete the 2009 single audit report .

      I.e.    The revised 2009 SEFA will be provided to Raieh Ende . Once Raleh Ende completes the re_work
      and provides us with their updaled report, it will be submitted along with the Data ColiecHon Form to
      the Federal Audit Clearinghouse . Riverside wilt notify the DoD Office of the Inspector General when the
      submiSSions are completed.

      Regards,

    -~,
    c- --//i <,( L._ /al
                      /'"            (
                                         lt ,(,£_
                                             /
      Michael F Cade
      Director o f Finance
      Riverside Research Inslitute




                                                                               156 WIllIAM STII(ET I"" FL I NEW I'()Rl(, NY 10038




                                                                12
Raich Ende & Malter Co. LLP Comments




                                                                                   ...........__..... .. .... _--" ...
                                                                                   _--          "" ,--.       ...........................,"
   ~IJEI-f1-<                                                                                        "

   MAL~OLLP
     FebNary 9, 2012
                                                                                   --
                                                                                   ............
                                                                                   .............. ,,_)
                                                                                                              ,,0>,.."""
                                                                                                              ".»St"'''''''




     Mr, Randolph R. Slone, SES
     Deputy Inspec\Or General
     PoHcy and Oversight
     Department of Defense
     400 Army Navy Drive
     Arlingtoo. VA 22202..i1704


     Re:     Draft Report on Qual~y Control Review 01 the Raich End", Maller & Co. LLP FY 2009 Single Audrt of the
             R;"8fside Research   Ins~lut ..   (Project No. D20,O-l:I IPOAC-0284.000)

     Dear Mr. Stone:

     In response to the recommendations directed to Raich Ende Malter & Co. LLP (the 'audit rorm") in the aOOve
     referenced draft report. we submit our p/<In of ac1lon, as fojlows:

              RewmmendaHoo 2(3) - Sased upon the findings contained in the above relerence<l draft report and the
              reslated SEFA, we will ,evise and perform additional aud~ procedures as deemed necessary to support
              our al.l<ll' oplnion . In certain instances. "'" will enhance the level of OO¥ prior aud~ doctJmentaoon to
              support the related   aud~   cooclusions.
              Recommendation 2Ib) - A revised reporting package for November 30, 2009 will be prepared and
              slibmiH&d by RivefSide Research Institute rRiversido· ) \0 ref\ec( tho revised Schedul e of Expenditures of
              Federal Awards In accorda""" with CirQ.llar A·t33 requirements. The r9VOsed reporting packa9" w~1
              incorporate add~k)nal Pfocedurflll l*iormed to address the deflciencies ideo"ltif.ed In tn.. report. Tho
              revised reportiog package will include      tn..
                                                       date lI1e revised aud;t worI< was Olmpleted.
              Recommendatjgn 2(£1 • After receiving lhe revised 2000 SEFA from Riverside • ...." wil l perform the
              necessary r&-WOrk and provide R;"'erside with an updated report.


                                                                                                          "           p<ofessional
                                                                                                                      Professiorlal
                                                                                                                                      ,
                                                                                , "
                                                                 a rootine basis to

     We awreciate lIIe recommendation. made dur;,g yeur review process and would be pleased to meet with you \0




     :'~
     AOldrew Levine. Partne<

     cc' Felicia M. Fu ller. M.SA
     AL:jd




   --
   ---
                                                                       13
